Report No. SPO-2010-007              September 27, 2010




            Evaluation of DoD Accident Reporting
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
This Page Intentionally Left Blank
Evaluation of DoD Accident Reporting                                     Report No. SPO-2010-007
                                                                               September 27, 2010



               Results in Brief: Evaluation of DoD
               Accident Reporting

What We Did
The DoD Military Injury Prevention Priorities Working Group analyzed a sample of the
1,874,826 injuries recorded in the CY 2004 medical databases. The Working Group reported a
large disparity between military medical records for accident-related injuries and Service safety
center records for accidents. At the request of the Assistant Deputy Under Secretary of Defense
for Environment, Safety, and Occupational Health, we evaluated the DoD injury reporting
process for reportable injury-causing accidents involving civilian and military personnel. We
also reviewed DoD and Component policies, reporting requirements, and recording systems for
injury-causing accidents.

What We Found
Although a significant part of the large discrepancy between medical databases and safety
databases could be attributed to the differences in recording criteria, non-compliance also
contributed. Installation and unit safety offices rarely reported accidents below the “Class C”
level. Database discrepancies for in-patient cases were an indication that Component safety
offices also may not have captured reports for all Class C and higher accidents. Quantifying the
extent of non-compliance would require further analysis of medical database entries and was
outside the scope of this evaluation.

DoD and Service policies did not incorporate requirements included in memoranda previously
issued by the Under Secretary of Defense for Acquisition, Technology, and Logistics. Further,
the Assistant Secretary of Defense for Health Affairs had not issued policy concerning the
sharing of accident-related medical data with DoD safety offices. As a result, information
sharing between safety and medical organizations, concerning injury-causing accidents, was
ineffective.

What We Recommend
This report presents 13 recommendations. The key recommendations are summarized below:

The Under Secretary of Defense for Acquisition, Technology, and Logistics should revise DoD
Instruction 6055.07 to incorporate changes required by earlier memoranda; eliminate confusion
between “reportable” and “recordable” as related to accidents; and direct Component safety
offices to obtain accident information from medical organizations, worker’s compensation
programs, and other relevant sources to supplement information reported directly by injured
personnel. The Under Secretary of Defense for Acquisition, Technology, and Logistics should
also initiate a review of DoD Component execution of injury record keeping requirements by
directly comparing the current number of injuries recorded in DoD Component mishap records



                                                i
Evaluation of DoD Accident Reporting                                       Report No. SPO-2010-007
                                                                                 September 27, 2010

to the estimated number of mishap-related injuries recorded in military medical treatment
records.

The Assistant Secretary of Defense for Health Affairs should clarify Health Insurance Portability
and Accountability Act provisions, and direct DoD medical commands to collect accident
information during injury treatment and provide relevant data to DoD safety offices.

DoD Components should develop procedures for using worker’s compensation notifications to
supplement accident reporting to safety offices, and establish medical liaison at their respective
safety centers to coordinate activities and programs with Service medical communities.

Client Comments
The Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics and the
Office of the Assistant Secretary of Defense for Health Affairs concurred with the applicable
recommendations included in this final report. Please refer to Appendix E for related
information on revisions to the draft recommendations.

The Offices of the responsible Deputy Assistant Secretaries of the Army, the Navy, and the Air
Force concurred with the applicable recommendations in the draft report.

Recommendations Table
                                                 Recommendations   No Additional
 Client                                          Requiring Comment Comments Required

 Under Secretary of Defense for Acquisition,
                                                                             1.a, 1.b, 1.c, 1.d, 3
 Technology, and Logistics
 Assistant Secretary of Defense for Health
                                                                             2.a, 2.b
 Affairs
 Deputy Assistant Secretary of the Army for
 Environment, Safety, and Occupational                                       4, 7, 8, 9
 Health
 Deputy Assistant Secretary of the Navy for
                                                                             5, 7, 8
 Safety
 Deputy Assistant Secretary of the Air Force
 for Environment, Safety, and Occupational                                   6, 8
 Health

Total Recommendations in this Report: 13




                                                 ii
Evaluation of DoD Accident Reporting                                                                          Report No. SPO-2010-007
                                                                                                                    September 27, 2010


Table of Contents
Results in Brief: Evaluation of DoD Accident Reporting........................................................... i
   What We Did ............................................................................................................................... i
   What We Found ........................................................................................................................... i
   What We Recommend ................................................................................................................. i
   Client Comments ........................................................................................................................ ii
   Recommendations Table ............................................................................................................. ii
Introduction ....................................................................................................................................1
   Background ................................................................................................................................. 1
   Objective ..................................................................................................................................... 3
   Scope and Methodology ............................................................................................................. 3
   Use of Computer-Processed Data ............................................................................................... 4
Observations ...................................................................................................................................5
   Observation 1 – Policies and Practices Regarding Collection and Use of Military Medical
   Treatment Data............................................................................................................................ 5
   Observation 2 – Analysis of Accident Reporting ..................................................................... 11
   Observation 3 – Other Military Personnel Issues ..................................................................... 13
   Observation 4 – Civilian Personnel Issues................................................................................ 17
Appendix A. Active Duty Military Fatalities ............................................................................19
Appendix B. USD(AT&L) Memorandum – “Safety and Health Recordkeeping” ...............20
Appendix C. USD(AT&L) Memorandum – “Injury Reporting Requirements” ..................26
Appendix D. Military Department Definitions for Accidents below Class C Threshold .....29
Appendix E. Client Comments ..................................................................................................30
Appendix F. Report Distribution...............................................................................................38
Appendix G. Acronyms Used in this Report ............................................................................39




                                                                        iii
Evaluation of DoD Accident Reporting                                Report No. SPO-2010-007
                                                                          September 27, 2010




                               This Page Intentionally Left Blank




                                               iv
Evaluation of DoD Accident Reporting                                             Report No. SPO-2010-007
                                                                                       September 27, 2010


Introduction
Preventable accidents in DoD result in an average of over 800 deaths per year 1 and degrade
capabilities and readiness. Accidents also generate significant costs. Since 2001, average annual
cost of workers’ compensation claims for the civilian workforce was over $600 million.
Accident-related costs for military personnel are not easily identified, but in a December 2001
report, 2 the National Safety Council estimated annual military workplace compensation cost to
be approximately $3.2 billion. The Council further estimated overall direct and indirect costs
(schedule delays, training and retraining of replacement workers, increased insurance premiums,
and added administrative fees) related to preventable accidents to be $12 to $20 billion per year.
In addition, the report stated that preventable accidents lower the morale of personnel and result
in poorer customer relations.

DoD Safety professionals rely on accurate information to reduce preventable accidents and
associated costs. This report reviews DoD reporting systems to identify problem areas that
prohibit effective reporting of injuries resulting from accidents.

Background
DoD Directive 4715.1E, “Environment, Safety, and Occupational Health,” March 19, 2005,
promulgated by the Under Secretary of Defense for Acquisition, Technology, and Logistics
[USD(AT&L)] is the overarching policy for the safety, environment, and occupational health
programs. The Directive assigns safety program responsibilities to DoD senior officials
including the Under Secretary of Defense for Personnel and Readiness [USD(P&R)]:

    •   USD(AT&L) – provide oversight of safety programs, to include: measuring,
        auditing, and reporting on performance; validating resource requirements; designating
        the DoD Designated Agency Safety and Health Official; resolving management
        disputes between or among DoD Components; maintaining an awards program; and
        supporting the Defense Safety Oversight Council.
    •   USD(P&R) – establish objectives, guidance, and procedures across all USD(P&R)
        organizations to manage safety risks, identify asset requirements, and measure and
        report performance; participate in asset performance reviews; and chair the Defense
        Safety Oversight Council.

DoD Instruction 6055.7 “Accident Investigation, Reporting, and Record Keeping,” October 3,
2000, prescribes and enforces regulations directly related to investigation, reporting, and keeping
records on accidental death, injury, occupational illness, and property damage. On December 3,
2004, the USD(AT&L) issued a memorandum (Appendix B) changing DoD Instruction 6055.7
to comply with the updated Occupational Safety and Health Administration occupational injury


1
  Defense Manpower Data Center data “U.S. Active Duty Military Deaths – 1980 through 2006,” obtained from
http://siadapp.dmdc.osd.mil/personnel/CASUALTY/Death_Rates.pdf, accessed on March 23, 2010. See Appendix
A for further discussion.
2
  Department of Defense Executive Assessment of Safety and Occupational Health Management Systems, National
Safety Council, December 6, 2001, Appendix E (pg.78-80).


                                                     1
Evaluation of DoD Accident Reporting                                               Report No. SPO-2010-007
                                                                                         September 27, 2010

and illness recording and reporting requirements contained in Code of Federal Regulations, Title
29, Part 1960, Subpart 1. 3

On July 19, 2005, USD(P&R), in his capacity as the Chair of the Defense Safety Oversight
Council, tasked the Assistant Secretary of Defense for Health Affairs [ASD(HA)] to “identify the
top 5 causes of non-combat injuries and recommend mitigation initiatives to reduce injuries.” To
facilitate that effort, on September 1, 2005, the ASD(HA) formed the DoD Military Injury
Prevention Priorities (DMIPP) Working Group. Participants included representatives from
environment, health, and safety communities in OSD, major DoD Components, and Joint Staff.
The goal of the DMIPP Working Group was to outline a systematic, coordinated DoD approach
to injury prevention.

In February 2006, the DMIPP Working Group published a report analyzing injury data for
calendar year 2004. 4 The report summarized 1,874,826 accident-related injuries of all types:
1,858,200 ambulatory / outpatient cases, 16,137 injuries requiring hospitalization, and 489
fatalities.

In its analysis, the DMIPP Working Group reported a significant disparity between military
medical records reflecting the number of accident-related injuries and Service safety center
records of accidents (See
Figure 1). The DMIPP Working
                                                     TOTAL        Army       Navy    Air Force
Group attempted to match medical
to safety records for the top five                    24.0%      14.5%      22.7%      52.7%
types of injuries. The Working          In-patient
                                          cases       (539 of    (184 of   (132 of     (223 of
Group found that of the 2,273 in-                      2,273)     1270)      580)       423)
patient cases in medical record
databases, only 539 (24 percent)                       2.0%       0.6%      1.5%        4.2%
                                       Out-patient
were present in the Service safety        cases      (3,016 of   (387 of   (698 of    (1,931 of
center records. For ambulatory /                     152,568)    60,945)   45,553)     46,070)
outpatient cases, the matching
was 2 percent – of total 152,568       Figure 1. DMIPP Working Group reported Service
medical entries, only 3,016 cases              Safety-Medical Data Matching Results
were identified in the safety
databases.

The DMIPP Working Group report prompted action from the Office of the USD(AT&L). On
February 20, 2007, the USD(AT&L) issued a memorandum (Appendix C) replacing the
memorandum of December 3, 2004. USD(AT&L) directed the Heads of DoD Components to:

    •   Establish procedures for the collection, maintenance, analysis, and reporting of
        injuries and illnesses



3
  Code of Federal Regulations, Title 29, “Labor,” Chapter XVII, “Occupational Safety And Health Administration,
Department Of Labor,” Part 1960, “Basic Program Elements For Federal Employee Occupational Safety And Health
Programs And Related Matters,” 2004. Most recent update in 2009.
4
  http://oai.dtic.mil/oai/oai?verb=getRecord&metadataPrefix=html&identifier=ADA458257


                                                      2
Evaluation of DoD Accident Reporting                                               Report No. SPO-2010-007
                                                                                         September 27, 2010

    •   Include the use of military medical treatment information and civilian personnel
        injury information to identify reportable accidents
    •   Maintain records of accident investigation reports involving all DoD civilian
        employees “pursuant to Code of Federal Regulations, Title 29, Part 1904” 5
    •   Apply civilian personnel reporting procedures to “separate, but equivalent logs” for
        military personnel injuries and illnesses
In addition, personnel were required to notify their supervisors of all work-related accidents,
injuries, and illnesses as soon as possible.

On April 24, 2008, the Office of the USD(AT&L) issued Change 1 to DoD Instruction 6055.7
that renumbered the Instruction from 6055.7 to 6055.07, updated references, and added
requirements for mishap analysis and resolution of friendly fire incidents. However, Change 1
did not incorporate the modifications contained in the February 20, 2007, memorandum.

Objective
The objective of this project was to evaluate the DoD injury reporting process for reportable
accidents involving civilian and military injuries. Specifically, we focused on:

    •   identifying DoD injury reporting policies
    •   evaluating compliance with reporting requirements
    •   identifying root causes for under-reporting to safety centers
    •   determining impediments to data transfer between medical and safety systems
    •   determining the impact of incompatibility of data among DoD Components
For this project, the term “injury,” refers to an injury caused by a reportable accident. Also, the
terms “Accident Reporting” and “Accident / Injury Reporting” refer to reportable accidents as
listed in DoD Instruction 6055.7, “Accident Investigation, Reporting, and Record Keeping,”
October 3, 2000, as modified by USD(AT&L) Memorandum, “Injury Reporting Requirements,”
February 20, 2007.

Scope and Methodology
We reviewed DoD and Component policies, general compliance with policy, and data systems
regarding reporting of injuries resulting from accidents. We reviewed DoD and military Service
policies and procedures for reporting accidents resulting in injuries. We also reviewed data
systems at the Service Safety Centers, Office of the Secretary of Defense, and the DoD Civilian
Personnel Management Service (CPMS) regarding injuries to military and civilian personnel.
We concentrated on DoD and military Service processes. Installation visits provided examples
of system application. Our review excluded accidents that did not result in injuries and all
accidents in areas of ongoing contingency operations.



5
 Code of Federal Regulations, Title 29, “Labor,” Chapter XVII, “Occupational Safety And Health Administration,
Department Of Labor,” Part 1904, “Recording And Reporting Occupational Injuries And Illnesses.”


                                                       3
Evaluation of DoD Accident Reporting                                        Report No. SPO-2010-007
                                                                                  September 27, 2010

We discussed the status of data transfer from the medical databases to safety databases and
injury data management practice with responsible officials from the:

   •   Office of the Assistant Secretary of Defense for Health Affairs
   •   U.S. Army Center for Health Promotion & Preventive Medicine
   •   Armed Forces Health Surveillance Center (a DoD Executive Agency supported by U.S.
       Army Center for Health Promotion & Preventive Medicine)
   •   Office of the Deputy Under Secretary of Defense for Readiness
   •   Office of the Deputy Under Secretary of Defense for Business Transformation
   •   Office of the Deputy Assistant Secretary of Defense for Environment, Safety, and
       Occupational Health
We interviewed safety personnel in the Offices of the responsible Deputy Assistant Secretaries
of the Army, the Navy, and the Air Force. We visited the Army Combat Readiness and Safety
Center, the Naval Safety Center, and the Air Force Safety Center to obtain a detailed picture of
the accident reporting process and medical / safety cooperation in each Department.

We made site visits to one installation from each military department. In addition to
interviewing the personnel at each installation safety office and installation medical facility
visited, we interviewed personnel from three or more operational units. For each operational
unit, we interviewed at least three enlisted personnel, one supervisor, and the unit safety officer.
Our interview sample at the installations was not sufficient to allow for generalized conclusions
regarding Department-wide implementation and compliance. General conclusions in this report
are based on data from Department safety offices and safety centers.

Comments concerning the occupational accident and injury reporting process for civilian
personnel were derived from interviews with the Chief of the Injury and Unemployment
Compensation Division of the CPMS. We also interviewed safety officials at the Defense
Logistics Agency and Fort Bragg, North Carolina. At Fort Bragg we also met supervisors of
units with large numbers of civilian employees.

The Army Audit Agency conducted an audit of the Army accident reporting process concurrent
with this review. We coordinated our site visits with the Army Audit Agency to avoid
duplication of effort and to reduce impact on the Army installation and safety offices.
Cooperation provided us the opportunity to interview safety personnel at the Army National
Guard Headquarters, Army Medical Command, and Army Materiel Command.

Use of Computer-Processed Data
For this project we used summary data provided by DoD organizations and offices including the
DMIPP Working Group, Defense Manpower Data Center, and military Department Safety
Centers / Safety Offices. We did not verify the reliability of the data provided. While we used
the summary data to support our observations, the data sets were not material to our conclusions.




                                                  4
Evaluation of DoD Accident Reporting                                    Report No. SPO-2010-007
                                                                              September 27, 2010


Observations
Observation 1 – Policies and Practices Regarding Collection
and Use of Military Medical Treatment Data
Condition
The degree of information sharing between safety and medical organizations for injury-causing
accidents varied among the three military departments. Safety organizations throughout DoD
were not actively pursuing accident information available from the medical databases. Medical
organizations were not providing data to safety professionals. There was no agreement in the
safety community about the distinction between the terms “reportable accidents” and “recordable
accidents.”

Cause
We identified the following potential causes for the above condition.

(a) Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics did not:
    • incorporate all relevant changes mandated by the various preceding memoranda issued
       since October 3, 2000.
    • clarify the requirement to “collect and use” military medical treatment information (as
       opposed to just “use”).
    • address the confusion created by two very similar terms, “reportable accidents” and
       “recordable accidents.”

(b) Safety training provided by the Components did not sufficiently emphasize reporting of all
    accidents (regardless of duty status and impact) to supervisors.

(c) The Assistant Secretary of Defense for Health Affairs did not:
   •   issue policy to DoD Components clarifying the fact that the Health Insurance Portability
       and Accountability Act allows sharing of injury-related medical data with the DoD safety
       offices.
   •   issue any memorandum directing the DoD Component medical organizations to collect
       accident information during injury treatment and provide the data to corresponding DoD
       safety offices.

Effects
Mishap-related injury data, available in the military medical databases, were not being fully
utilized by the Component Safety offices to identify unreported mishaps. Therefore, Component
Safety Centers had incomplete accident databases. Also, Service members were not aware of the
safety policy requirements for reporting all accidents.




                                                5
Evaluation of DoD Accident Reporting                                    Report No. SPO-2010-007
                                                                              September 27, 2010

Recommendations

      Recommendation 1:
      The Under Secretary of Defense for Acquisition, Technology, and
      Logistics should revise DoD Instruction 6055.07, “Accident Investigation,
      Reporting, and Record Keeping: Change 1 of April 24, 2008” to:
         a. Incorporate all relevant changes required by the Under Secretary of
            Defense for Acquisition, Technology, and Logistics memoranda
            issued since October 3, 2000.
         b. Eliminate confusion between the terms “reportable accidents” and
            “recordable accidents,” as well as between “accident reporting”
            and “accident recording.”
         c. Clarify the requirement to “collect and use” military medical
            treatment information (as opposed to just “use”) to aid in mishap
            identification.
         d. Require DoD Components to provide safety training emphasizing
            reporting of accidents to supervisors regardless of duty status and
            impact.



      Recommendation 2:
      The Assistant Secretary of Defense for Health Affairs should:
          a. Issue policy to DoD Components clarifying that Health Insurance
             Portability and Accountability Act allows sharing of injury-related
             medical data with DoD safety offices.
          b. Direct DoD Component medical organizations to collect accident
             information during injury treatment and provide the information
             to corresponding DoD safety offices.




Detailed Discussion & Analysis
Accident Reporting Mechanisms
Figure 2 below illustrates the two-mechanism reporting process for military personnel. The
event sequence for the traditional or primary mechanism is shown in the top row. The back-up
or secondary mechanism, which is available to capture data not reported through the traditional
mechanism, is shown in the bottom row. USD(AT&L) memorandum of February 20, 2007,
required safety offices to access and utilize this secondary mechanism. The illustration also
highlights the steps where accident records can be lost.




                                                6
Evaluation of DoD Accident Reporting                                     Report No. SPO-2010-007
                                                                               September 27, 2010




      Figure 2. Military Personnel Accident-Related Injury Reporting Process


Safety Community

Office of the Secretary of Defense
The USD(AT&L) memorandum of February 20, 2007, directed the Heads of DoD Components
to use “military medical treatment information and civilian personnel injury information in order
to identify [reportable] accidents.” However, the Office of the USD(AT&L) did not incorporate
that requirement into the subsequent Change 1 of DoD Instruction 6055.07, issued on April 24,
2008. Component safety offices did not develop comprehensive procedures to obtain relevant
military medical treatment information from treatment facilities or other medical sources. Safety
offices were limited to military medical treatment information provided to them directly by
injured personnel. Existing DoD policy was insufficient to cause appropriate Component action.

Military Departments
Service members, interviewed at the three installations we visited, were not aware of the safety
policy requirements for reporting all accidents. During the interviews and in written responses,
military personnel at installations stated that they report accidents and occupational injuries to
their immediate supervisor only if they miss any work. Some supervisors whom we interviewed
demonstrated limited knowledge of safety policies and were not aware of the purpose of
reporting minor accidents: identification of cumulative impact, analysis of trends, and
development of preventive steps. Supervisors and unit safety officers were not trained to request
information about unreported accidents from Service members.

Representatives of the Office of the USD(AT&L) explained that the intent of the memorandum
of February 20, 2007, was for medical information to supplement existing accident reporting and
contribute to safety risk assessments. None of the military departments were meeting the full
intent of revised DoD Instruction 6055.07 included in the USD(AT&L) memorandum of
February 20, 2007. In fact, most installation safety personnel indicated that they were unaware
of the USD(AT&L) memorandum of February 20, 2007. As of January 2010, the military



                                                7
Evaluation of DoD Accident Reporting                                      Report No. SPO-2010-007
                                                                                September 27, 2010

departments had adopted different approaches to meet the requirement to use military medical
treatment information.

   Army
   Army Regulation 385-10, “The Army Safety Program,” August 23, 2007, did not require
   installation safety offices or unit safety offices to collect military medical information
   from medical treatment facilities or unit medical stations.

   The Army safety office indicated that it was common practice for installation and/or unit
   safety offices to collect military injury information from installation medical treatment
   facilities. Our observations at the Fort Bragg medical facility and the installation safety
   office did not support this assertion. According to a brigade safety officer in the 82nd
   Airborne Division, his unit did not have any procedures to collect or to receive any
   accident data from the brigade medical office or installation medical treatment facility.
   In September 2007, the Army developed a data use agreement between the “Patient
   Administration Systems and Biostatistics Activity” and the “U.S. Army Combat
   Readiness / Safety Center.” Service-wide accident related injury data now can be
   transferred to the Service safety center electronically. The Army Combat Readiness and
   Safety Center reported that as of March 2010, they received two data sets from the
   Patient Administration Systems and Biostatistics Activity. However, we did not receive
   any information concerning the use of these data or any plan for future data transfer.

   Navy
   As of January 2010, Navy safety policies (Navy Instruction 5102.1D and Marine Corps
   Order P5102.1D, “Mishap and Safety Investigation, Reporting, And Record Keeping
   Manual,” January 7, 2005) did not require on-shore installation and unit safety offices to
   collect or receive military medical information from installation medical facilities.

   During a site visit to Norfolk Naval Station, ship safety officers stated they had a good
   working relationship with ship medical officers and shared accident-related injury data.
   However, on-shore installation and unit safety officers had a lesser degree of cooperation
   and sharing with on-shore medical facilities.

   Air Force
   Air Force Instruction 91-204, “Safety Investigations and Reports,” September 24, 2008,
   required installation-level safety offices to obtain accident information from installation
   medical facilities. Medical community at the Andrews AFB also had procedures for
   collecting accident information from patients in the emergency room and providing the
   information to the installation safety office.

   Air Force policies and procedures came closest to meeting the requirements of the
   February 20, 2007, USD(AT&L) memorandum. However, we saw no arrangement for
   the transfer of accident information from in-hospital stays or clinic visits. Air Force
   Safety Center personnel indicated that all installations were supposed to have the same
   procedures. However, they had not verified that all installations had developed a similar
   process for emergency room visits.


                                                8
Evaluation of DoD Accident Reporting                                      Report No. SPO-2010-007
                                                                                September 27, 2010

Service Safety Centers
Personnel at the Service Safety Centers indicated that they were aware of the February 20, 2007,
USD(AT&L) memorandum. However, it appears that they did not understand the changes
directed by the memorandum. They believed that the memorandum contents were a repetition of
the December 2004 USD(AT&L) memorandum, which required them to revise policies to
comply with the Occupational Safety and Health Administration’s reporting requirements
contained in Code of Federal Regulations, Title 29, Part 1904.

Medical Community
The ASD(HA) is the principal advisor to the USD(P&R) for all DoD health policies, programs,
and force health protection activities. As of January 2010, ASD(HA) had not issued policy
concerning the sharing of accident-related medical injury data with DoD safety offices at bases
and installations.

DoD 6025.18-R, “Health Information Privacy Regulation,” January 24, 2003, prescribes the uses
and disclosures of protected health information. While it allows disclosure of health information
for workers’ compensation and the release of data to several entities with varying degrees of
sanitization, the policy contains no explicit statement concerning sharing of data with DoD safety
offices at the installation level. This contributed to differing interpretations of privacy law and
hindered systematic sharing of accident-related data with safety offices.

We observed that the Andrews Air Force Base medical group was sharing information from the
medical treatment facility emergency room with the installation safety office. This cooperation
was the result of policy published by the Air Force Air Mobility Command. The Air Force-
specific program was generated prior to the requirement in the USD(AT&L) memorandum of
February 20, 2007.

We found no similar program within the Army or the Navy. Army and Navy installation safety
officers indicated that their medical counterparts were reluctant to share information and cited
concerns about potential violation of Health Insurance Portability and Accountability Act
provisions. Representatives from the Army and the Navy installation medical facilities stated
that the Office of the ASD(HA) had not made data sharing between medical and safety a
requirement. Medical organization representatives also stated that they were unaware of the
need to share military medical treatment information with the safety community. This
demonstrates a failure to effectively communicate among functional areas and the military
Services.




                                                9
Evaluation of DoD Accident Reporting                                Report No. SPO-2010-007
                                                                          September 27, 2010




                               This Page Intentionally Left Blank




                                              10
Evaluation of DoD Accident Reporting                                     Report No. SPO-2010-007
                                                                               September 27, 2010

Observation 2 – Analysis of Accident Reporting
Condition
As of the date of this report, the DoD does not have an accurate measure of the degree of non-
compliance in accident reporting. Although the DMIPP Working Group report indicated a high
degree of discrepancy between the medical databases and the Service safety databases, it also
indicated that underreporting (non-compliance in reporting) is not the only cause for the
discrepancy. Other factors include differences in threshold reporting requirements and poor data
quality.

Cause
The DMIPP Working Group compared all injuries in the medical databases to the entries in the
Service safety databases for matching, including injuries from: action of a hostile force,
intentionally self-damaging acts, attack or assault, pre-existing musculoskeletal disorders,
minimum stress and strain, escaping or eluding custody or arrest, and the illegal use of drugs or
other substances. However, these injuries are not reportable as per DoD Instruction 6055.07. In
addition, medical databases include injuries that are below Class C and occur during off-duty
hours. DoD Instruction 6055.07 of February 20, 2007, did not provide clear directions regarding
accidents below Class C. As shown in Appendix D, Army and Air Force safety policy
developed definitions for Class D accidents. Injuries included in Class D are less severe than the
injuries included in Class C, but more severe than injuries requiring first aid only.

Effects
DoD and the Components are unable to evaluate their performance in the area of accident
reporting. The impacts of policy changes on completeness of accident reporting cannot be
verified.

Recommendation

      Recommendation 3:
      The Under Secretary of Defense for Acquisition, Technology, and
      Logistics should initiate a review of DoD Component execution of injury
      record keeping requirements by directly comparing the current number of
      injuries recorded in DoD Component mishap records to the estimated
      number of mishap-related injuries recorded in military medical treatment
      records.




                                                11
Evaluation of DoD Accident Reporting                                Report No. SPO-2010-007
                                                                          September 27, 2010




                               This Page Intentionally Left Blank




                                              12
Evaluation of DoD Accident Reporting                                      Report No. SPO-2010-007
                                                                                September 27, 2010



Observation 3 – Other Military Personnel Issues
All Military Departments
Officials from the Office of the USD(AT&L) requested that we determine if there was “any
evidence that Service personnel are instructed to minimize reporting accidents that may make the
unit look bad.” We included a question in the questionnaire regarding this item. During
interviews, we asked the questions to more than 30 Service members and included the query in a
questionnaire. Personnel of various ranks indicated that the opposite was true – they were told
by commanders to report all accidents. We found no indication of pressure from unit
commanders to skip accident reporting.

Army
Condition
During our visit to Fort Bragg, the installation safety office informed us that the unit safety
officers do not always notify the installation safety office when reporting accidents to the Army
Combat Readiness / Safety Center through the Automated Reporting Accident System. Army
Combat Readiness / Safety Center representatives later verified that this was an Army-wide
issue, not unique to Fort Bragg. Many Army installation safety offices receive incomplete
notifications about accidents on their installations.

Cause
In most cases, installation safety officers were part of the Army Installation Management
Command, and not in the chain of command between units and the Combat Readiness / Safety
Center. In addition, in the Automated Reporting Accident System for reporting Army mishaps,
it was optional for the unit safety officers to notify the installation safety office.

Effects
Army installation safety officers had an incomplete picture of mishaps on their installations and
they were unable to take all the necessary actions to prevent mishap recurrence.

Recommendation

       Recommendation 4:
       The Deputy Assistant Secretary of the Army for Environment, Safety, and
       Occupational Health should modify the Automated Reporting Accident
       System to include automatic notification to the relevant installation safety
       office for on-base accidents at any Army installation.




                                                13
Evaluation of DoD Accident Reporting                                      Report No. SPO-2010-007
                                                                                September 27, 2010

Navy
Condition
Although Navy policy required ship and shore elements to use the Web Enabled Safety System
for accident reporting, its implementation was inconsistent and incomplete.

Cause
Many commands and vessels reported mishaps and injuries using legacy reporting systems.
Transfer of data between the systems was not automatic, creating the potential for data loss. In
addition, shipboard personnel indicated that using the Web Enabled Safety System for accident
reporting was difficult during deployment because of limited available bandwidth. A senior
DoD official (former navy submarine officer) stated that it could also be a case of not assigning a
high enough priority to accident reporting.

Effects
As a result of incomplete fielding of the accident reporting system, the Naval Safety Center was
not receiving all of the accident reports. Also, many accident reports came in late.

Recommendation

       Recommendation 5:
       The Deputy Assistant Secretary of the Navy for Safety should expedite
       completion of fielding of the Web-Enabled Safety System throughout all
       commands and vessels, replacing the legacy reporting systems.




Air Force
Condition
At Andrews Air Force Base, we observed that while the installation and Major Command safety
officers had access to the Air Force Safety Automated System, the unit safety officers had to
manually complete accident reporting forms and fax them to their installation safety officer for
entry into the automated system. The installation safety officer then manually entered the data
into the Air Force Safety Automated System (after checking for reporting criteria). Discussions
with Air Force Safety Center representatives confirmed that the procedure was Air Force-wide.

Cause
The Air Force is concerned about providing unit safety officers with access to the Air Force
Safety Automated System because many of the unit safety officers are not full-time safety
personnel.




                                                14
Evaluation of DoD Accident Reporting                                       Report No. SPO-2010-007
                                                                                 September 27, 2010

Effects
The installation safety office is overwhelmed with the additional task of manually entering all of
the accident reports into the Air Force Safety Automated System. There is a lag between the
time when the unit safety officer reports the mishap and when the data appear in the Air Force
Safety Automated System. The existing process is inefficient.

Recommendation

       Recommendation 6:
       The Deputy Assistant Secretary of the Air Force for Environment, Safety,
       and Occupational Health should modify the Air Force Safety Automated
       System to allow unit safety offices to enter accident reports into the
       system.



Service Safety Centers
Condition
The Army Combat Readiness and Safety Center and Naval Safety Center did not have a
dedicated medical liaison to coordinate policy development and implementation with the medical
community.

Cause
The Army and the Navy were unaware of the need for a designated medical liaison at their safety
centers. The Navy was also limited by budgetary constraints.

Effects
The Army and the Navy did not receive routine accident data from their military medical
facilities, while the Air Force has been receiving a daily set of accident records from the
emergency rooms.

Recommendation

       Recommendation 7:
       The Deputy Assistant Secretary of the Army for Environment, Safety, and
       Occupational Health and the Deputy Assistant Secretary of the Navy for
       Safety should establish medical liaisons at their respective safety centers to
       coordinate activities and programs with Service medical communities.




                                                15
Evaluation of DoD Accident Reporting                                Report No. SPO-2010-007
                                                                          September 27, 2010




                               This Page Intentionally Left Blank




                                              16
Evaluation of DoD Accident Reporting                                     Report No. SPO-2010-007
                                                                               September 27, 2010


Observation 4 – Civilian Personnel Issues
Military Departments
Condition
According to DoD Civilian Personnel Management Service (CPMS), approximately 12 percent
of the 22,000 Safety First Event Reporting notifications sent each year did not reach the intended
recipient – designated points of contact in the unit safety offices.

Figure 3 below shows the two-mechanism accident reporting process required for DoD civilians.
The back-up mechanism (shown in the bottom row of the flowchart), as required by
USD(AT&L) memorandum of February 20, 2007, utilizes Safety First Event Reporting
notifications to identify missed accident reports.




            Figure 3. Civilian Personnel Accident-Related Injury Reporting Process

Cause
According to CPMS, the primary cause was invalid e-mail addresses resulting from personnel
turn over at the safety offices. In addition, the Navy and the Air Force did not set up
comprehensive procedures for the use of Safety First Event Reporting notifications. Moreover,
not all Army installation safety offices used this reporting system.

Effects
As a result of non-receipt of notifications by the unit safety offices, at least 2,600 accident
reports did not enter the back-up mechanism for data capture. This increased the potential for
additional data loss but, more importantly, presented incomplete visibility to concerned
organizations and leaders.




                                               17
Evaluation of DoD Accident Reporting                                    Report No. SPO-2010-007
                                                                              September 27, 2010

Recommendation

       Recommendation 8:
       The Deputy Assistant Secretary of the Army for Environment, Safety, and
       Occupational Health; Deputy Assistant Secretary of the Navy for Safety;
       and Deputy Assistant Secretary of the Air Force for Environment, Safety,
       and Occupational Health should develop common procedures for using
       Safety First Event Reporting notifications to enhance completeness of
       DoD accident reporting. This should include maintaining accurate contact
       information for the installation and unit safety offices at the Civilian
       Personnel Management Service.



Army Reporting System for Injuries involving Civilians
Condition
We observed that at Fort Bragg, the installation safety office used the Army Safety Performance
Improvement and Reporting system, a legacy system not connected to the Army Combat
Readiness and Safety Center. The Army Safety Office representative identified three Army
installations still using the Army Safety Performance Improvement and Reporting system,
although Army policy required the use of the Automated Reporting Accident System. In
December 2009, the Fort Bragg safety office notified us that Fort Bragg had discontinued the use
of the Army Safety Performance Improvement and Reporting system.

Cause
As per the Army Safety Office, three Army installations were using the legacy system (Army
Safety Performance Improvement and Reporting system) because their safety offices were
unaware of the mandatory requirement to use the Automated Reporting Accident System for
civilian personnel.

Effects
Accident databases at the Army Combat Readiness / Safety Center were missing accident reports
for civilian personnel from these three Army installations and understating the incidence of
accidents.

Recommendation

     Recommendation 9:
     The Deputy Assistant Secretary of the Army for Environment, Safety, and
     Occupational Health should direct all Army installations to ensure that
     installation safety offices are using the Army Automated Reporting
     Accident System for reporting all injuries - including injuries involving
     civilians.


                                              18
Evaluation of DoD Accident Reporting                                                       Report No. SPO-2010-007
                                                                                                 September 27, 2010


Appendix A. Active Duty Military Fatalities
The Defense Manpower Data Center provided a summary of all U.S. active duty military deaths
from 1980 through 2007. The table below shows that over the 28-year period, a total of 23,558
deaths were caused by accidents, representing over half of the total deaths from all causes.
Perhaps of even greater significance, from 2002 to 2007, a period of combat operations, active
duty fatalities from preventable accidents (3,476) were as high as fatalities from all hostile
actions (3,451).


        U.S. ACTIVE DUTY MILITARY DEATHS - 1980 through 2007 (as of April 22, 2008)
                                                                                         Accident-      Accident
                                                             Deaths         Cause         related      Deaths as %
   Calendar    Total Military               Deaths by       Caused by     Assignment     Deaths per      of Total
     Year          FTE*       Total Deaths Hostile Action   Accidents      Pending       100K FTE        Deaths
     1980       2,159,630        2,392            1              1,556                       72           65.1%
     1981       2,206,751        2,380                           1,524                       69           64.0%
     1982       2,251,067        2,319            2              1,493                       66           64.4%
     1983       2,273,364        2,465           281             1,413                       62           57.3%
     1984       2,297,922        1,999             7             1,293                       56           64.7%
     1985       2,323,185        2,252             5             1,476                       64           65.5%
     1986       2,359,855        1,984             2             1,199                       51           60.4%
     1987       2,352,697        1,983            39             1,172                       50           59.1%
     1988       2,309,495        1,819            17             1,080                       47           59.4%
     1989       2,303,384        1,639            23             1,000                       43           61.0%
     1990       2,258,324        1,507             1              880                        39           58.4%
     1991       2,198,189        1,787           147              931                        42           52.1%
     1992       1,953,337        1,293             1              676                        35           52.3%
     1993       1,849,537        1,213            29              632                        34           52.1%
     1994       1,746,482        1,075                            544                        31           50.6%
     1995       1,661,928        1,040            7               538                        32           51.7%
     1996       1,613,675         974            20               527                        33           54.1%
     1997       1,578,382         817                             433                        27           53.0%
     1998       1,538,570         827             3               445                        29           53.8%
     1999       1,525,942         796                             439                        29           55.2%
     2000       1,530,430         758            17               397                        26           52.4%
     2001       1,552,096         891            58               434                        28           48.7%
     2002       1,627,142         999            18               543                        33           54.4%
     2003       1,732,632        1,410           340              576           1            33           40.9%
     2004       1,711,916        1,873           739              605           3            35           32.3%
     2005       1,664,014        1,941           739              649           5            39           33.4%
     2006       1,611,533        1,882           769              559          25            35           29.7%
     2007       1,608,226        1,950           846              544          70            34           27.9%
     Total      53,799,705      44,265          4,111         23,558          104            44           53.2%
    Per Year    1,921,418        1,581           171             841                         44           53.2%

  * Official Department of Defense end-strengths as of December 31 for military pay accounts. Excludes full time
  Guard and Reserve. Full time equivalent (FTE) is based on official Department of Defense fiscal year end selected
  reserve strength (10% of the figure is used to estimate days on Active Duty).
  Prepared by the Data, Analysis, and Programs Division of the Defense Manpower Data Center.




                                                            19
Evaluation of DoD Accident Reporting        Report No. SPO-2010-007
                                                  September 27, 2010



Appendix B. USD(AT&L) Memorandum – “Safety
and Health Recordkeeping”




                                       20
Evaluation of DoD Accident Reporting        Report No. SPO-2010-007
                                                  September 27, 2010




                                       21
Evaluation of DoD Accident Reporting        Report No. SPO-2010-007
                                                  September 27, 2010




                                       22
Evaluation of DoD Accident Reporting        Report No. SPO-2010-007
                                                  September 27, 2010




                                       23
Evaluation of DoD Accident Reporting                                                                         Report No. SPO-2010-007
                                                                                                                   September 27, 2010




              othclals listed Ln thIs paragraph are mtended to be the equivalent of the private sector officials


              who are required to ce rt ify records under 1904.32(b)(4).


              § 1960.68 Prohibition against discrimination.

                      Title 29 CFR 1904.36 refers to S ecti on I I (e) oC the Occupational Safety and Health Act.

              For Federal agencies, the words       ;'Sectio n   11(c)" shall be read as "Executive Onler 12196 Section


              1-201(Q."


                      Note to §1960.68: This modification is necessary hecause Section ll(c) of the

              OccupationAl <;nfrty l'Inn H<"'illth Art ('\1111' :lprl;�" In   private <;;ectnr employers and the I LS. Postal


              Service. The cotTespollding prohibitions against discrimination appl ic ab l e to Federal employers


              arc contained in Section 1-201 (0 of Exec utiv e Order 12196,

              §1960.69 Ti-all�iiioll fl-om former I-Ule and n�tel1tioo aDd updating of old forms.

                      (a) Between October 1,2004 and January 1. 2005, agencies must c onti nu e to record and


              track their occupational injuries and illnesses. During that period, Fe der a l agencies may choose


              to c_omply With the requirements orthe old Part 1960, Subpart I, or they may choose tn comply


              with the requirem ents or 29 eFR 1904.

                      (b) Federal agencies must retain copi es of the recordkeeping records utilized under the

              old system for five years following the year to which they relate and continue to provide access


              to the data as though these fOrulS we re the OSHA Fonn 300 Log and Form 301 Incident Report.


              Agencies are not required to update the old fomls.

              §1960.70 Reporting of serious accidents.

                      Agencies must pro,,�de the Office of Federal Agency Programs with a summary report of


              each t�ital and catastrophic accident investigation. The summaries shall address the date/time or


              <lccident, agency/establishment narneJ and location, and_ cOlIseljuences, descripti on or opera ti on




                                                                       4




                                                                     24
Evaluation of DoD Accident Reporting        Report No. SPO-2010-007
                                                  September 27, 2010




                                       25
Evaluation of DoD Accident Reporting        Report No. SPO-2010-007
                                                  September 27, 2010



Appendix C. USD(AT&L) Memorandum – “Injury
Reporting Requirements”




                                       26
Evaluation of DoD Accident Reporting        Report No. SPO-2010-007
                                                  September 27, 2010




                                       27
Evaluation of DoD Accident Reporting        Report No. SPO-2010-007
                                                  September 27, 2010




                                       28
Evaluation of DoD Accident Reporting                                         Report No. SPO-2010-007
                                                                            September 27, 2010



Appendix D. Military Department Definitions
for Accidents below Class C Threshold
The military Departments developed procedures for reporting Class C and higher
category accidents through central databases located at their Safety Centers. Army and
Air Force safety policies developed definitions for accidents below the Class C threshold,
calling them “Class D” accidents. We found that safety professionals generally consider
Class D accidents as less severe than Class C, but more severe than injuries requiring first
aid only.

   Army Regulation 385-10, “The Army Safety Program,” August 23, 2007, establishes
   Army policy and defines Class D accidents as “an Army accident in which the
   resulting total cost of property damage is $2,000 or more, but less than $20,000; a
   nonfatal injury or illness resulting in restricted work, transfer to another job, medical
   treatment greater than first aid, needle stick injuries and cuts from sharps that are
   contaminated from another person’s blood or other potentially infectious material,
   medical removal under medical surveillance requirements of an OSHA standard,
   occupational hearing loss, or a work–related tuberculosis case.”

   OPNAVINST 5102.1D, “Navy & Marine Corps Mishap and Safety Investigation,
   Reporting, And Record Keeping Manual,” of January 7, 2005, establishes Navy and
   U.S. Marine Corps safety policy but does not define accidents below the Class C
   threshold.

   Air Force Instruction 91-204, “Safety Investigations and Reports,” September 24,
   2008, establishes Air Force policy and defines Class D accidents as “Any nonfatal
   injury or occupational illness that does not meet the definition of Lost Time. These are
   cases where, because of injury or occupational illness, the employee only works partial
   days, has restricted duties or was transferred to another job, required medical treatment
   greater than first aid, or experienced loss of consciousness (does not include GLOC)
   [G-force induced loss of consciousness]. In addition, a significant injury (e.g.
   fractured/cracked bone, punctured eardrum) or occupational illness (e.g. occupational
   cancer (mesothelioma), chronic irreversible disease (beryllium disease)) diagnosed by
   a physician or other licensed health care professional must be reported even if it does
   not result in death, days away from work, restricted work, job transfer, medical
   treatment greater than first aid, or loss of consciousness.”




                                              29
Evaluation of DoD Accident Reporting                                   Report No. SPO-2010-007
                                                                      September 27, 2010


Appendix E. Client Comments
Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics
The response from the Office of the USD(AT&L) to our draft report follows (see pages
33 to 35). Management non-concurred with four recommendations in the draft report:
1.c, 1.d, 3.a, and 3.b. We discussed the concerns with management officials and we
agreed to:
   •   Revise recommendation 1.c
   •   Delete recommendation 1.d and renumber original 1.e as 1.d
   •   Revise recommendations 3.a and 3.b and combine them into a single
       recommendation (#3)
This final report includes revised language, and the Office of the USD(AT&L) concurred
with the revised recommendations.

Office of the Assistant Secretary of Defense for Health
Affairs
The response from the Office of the ASD(HA) to our draft report follows (see pages 36 to
39). Management non-concurred with two recommendations - 3.a and 3.b. After
discussions and negotiations with applicable offices, we revised the recommendations 3.a
and 3.b into a single recommendation (#3) directed only at the Office of the
USD(AT&L). The Office of the ASD(HA) is not responsible for implementing this
revised recommendation #3. Management’s non-concurrence is no longer an issue.

Military Department Offices of Primary Responsibility
The Offices of the Deputy Assistant Secretary of the Army for Environment, Safety, and
Occupational Health; the Deputy Assistant Secretary of the Navy for Safety; and the
Deputy Assistant Secretary of the Air Force for Environment, Safety, and Occupational
Health concurred with the original recommendations. Their comments are available on
request.




                                          30
Evaluation of DoD Accident Reporting         Report No. SPO-2010-007
                                            September 27, 2010




                                       31
Evaluation of DoD Accident Reporting         Report No. SPO-2010-007
                                            September 27, 2010




                                       32
Evaluation of DoD Accident Reporting         Report No. SPO-2010-007
                                            September 27, 2010




                                       33
Evaluation of DoD Accident Reporting         Report No. SPO-2010-007
                                            September 27, 2010




                                       34
Evaluation of DoD Accident Reporting         Report No. SPO-2010-007
                                            September 27, 2010




                                       35
Evaluation of DoD Accident Reporting         Report No. SPO-2010-007
                                            September 27, 2010




                                       36
Evaluation of DoD Accident Reporting         Report No. SPO-2010-007
                                            September 27, 2010




                                       37
Evaluation of DoD Accident Reporting                                  Report No. SPO-2010-007
                                                                     September 27, 2010


Appendix F. Report Distribution
Office of the Secretary of Defense
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics*
Office of the Under Secretary of Defense for Personnel and Readiness
Office of the Assistant Secretary of Defense for Health Affairs*

Department of the Army
Inspector General, Department of the Army
Office of the Deputy Assistant Secretary for Environment, Safety, and Occupational
Health*

Department of the Navy
Naval Inspector General
 Deputy Naval Inspector General for Marine Corps Matters
Office of the Deputy Assistant Secretary for Safety*

Department of the Air Force
Inspector General, Department of the Air Force
Office of the Deputy Assistant Secretary for Environment, Safety, and Occupational
Health*

Congressional Committees
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform

* Recipients of the draft report




                                          38
Evaluation of DoD Accident Reporting                                 Report No. SPO-2010-007
                                                                    September 27, 2010


Appendix G. Acronyms Used in this Report
CPMS                  Civilian Personnel Management Service
DMIPP                 DoD Military Injury Prevention Priorities (Working Group)
ASD(HA)               Assistant Secretary of Defense for Health Affairs
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                      Logistics
USD(P&R)              Under Secretary of Defense for Personnel & Readiness




                                          39
Evaluation of DoD Accident Reporting                                Report No. SPO-2010-007
                                                                          September 27, 2010




                               This Page Intentionally Left Blank




                                              40
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 Army Navy Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Arlington, VA 22202-4704





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                  Report                        www.dodig.mil/hotline
                                                                                                                                                                                  Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
